                                        National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              September 30, 2011

TO:                Jeffery Lupis, Division Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-11-1-024, Review of Associated Universities,
         Inc.’s Accounting System and Executive Compensation

We contracted with the Defense Contract Audit Agency (DCAA), Chesapeake Bay Branch
Office, to perform a comprehensive internal control review of Associated Universities, Inc.
(AUI). This is the third part of this audit 1, wherein DCAA reviewed the adequacy of AUI’s
accounting system and executive compensation.

Background

AUI manages astronomical observatories for NSF and is the management organization for the
National Radio Astronomy Observatory (NRAO), which is one of NSF’s Federally Funded
Research and Development Centers (FFRDC). AUI manages research facilities in Green Bank,
WV (site of the Green Bank telescope) and in Socorro, NM (site of the Very Large Array and
Expanded Very Large Array). AUI also manages the Atacama Large Millimeter Array (ALMA)
which is still under construction in Chile. NSF awarded Cooperative Agreement AST-0956545
to AUI, effective from November 15, 2009 through September 30, 2015, for the management
and operations of the NRAO. NSF projected it would award about $458 million of funds to AUI
for the management and operations of the National Radio Astronomy Observatory (NRAO) for
FYs 2010-2015. We requested an internal control audit of AUI to determine whether AUI has
systems in place to ensure compliance with federal regulations and proper stewardship over NSF
funds.

The objectives of this specific audit were to determine the adequacy of Associated Universities,
Inc.’s (AUI) accounting system, including cost allocation recovery, the reasonableness of the
awardees’ highest paid executives, and for determining if the weaknesses addressed in NSF’s

1
 The first part of the audit was transmitted under NSF OIG Audit Report No. OIG-10-1-013, Evaluation of the
Adequacy of Associated Universities Inc.’s Short and Long Range Planning Processes, dated September 30, 2010.
The second part of the audit was transmitted under NSF OIG Audit Report No. OIG-11-1-016, Evaluation of AUI’s
Internal Control over Property, Procurement and Travel, dated March 31, 2011.
                                                        NSF OIG Audit Report No. OIG-11-1-016


2007 Total Business System Recovery (TBSR) report have been properly addressed and
corrected. DCAA’s audit report is included as an attachment to this memo. DCAA’s findings
are summarized below.

DCAA determined that, except for the conditions noted below, AUI’s accounting system is
adequate for accumulating and billing costs under Government awards. In addition, AUI’s
executive compensation is reasonable in accordance with the federal regulations, and the
weaknesses addressed in NSF’s TBSR report have been properly addressed and corrected. The
exceptions are:

       1. AUI does not maintain a “final” version of its policies and procedures concerning its
          Indirect Cost and Common Cost Recovery Rates.
       2. AUI does not properly apply fixed rates to compute its carry forwards in accordance
          with federal requirements.
       3. AUI excludes voluntary unallowable costs incurred by NRAO from the base and
          charges it to AUI when computing the indirect cost rate.
       4. AUI did not disclose its full practice of allocating common costs to the Alma Project
          when describing the cost allocation method.
       5. AUI’s accounting system does not adequately identify the source and application of
          funds for federally-sponsored activities. As a result, the system does not allow for a
          timely reconciliation of its quarterly SF 272’s to the cumulative costs incurred on
          various awards. Without being able to reconcile cost accounting data to the SF 272’s,
          the auditor is unable to determine the accuracy of the costs reported to NSF or if there
          are any cost overruns.

DCAA made several recommendations to address the deficiencies identified in AUI’s accounting
system and we recommend that the NSF Director of DACS address and resolve each of DCAA’s
recommendations. AUI agreed with all the auditor’s recommendations, and stated that it will 1)
revise its accounting and indirect cost policies and procedures; 2) make any necessary
corrections to its carry forward indirect cost rate adjustments for FY 2007, FY 2008, and FY
2009 in its FY 2009, FY 2010 and FY 2011 Indirect Cost Rate Proposals; and 3) correct any
errors in claimed costs submitted to NSF, once it reconciles and verifies total reported
expenditures. AUI’s response is described after the findings and recommendations in DCAA’s
report and is included in its entirety in Attachment A.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the NSF AUI Program Director. The
responsibility for audit resolution rests with DACS. Accordingly, we ask that no action be taken
concerning the report’s findings without first consulting DACS at (703) 292-8242.




                                                2
                                                        NSF OIG Audit Report No. OIG-11-1-016



OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
          progress, findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
          Auditing Standards and Office of Management and Budget Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit report on AUI and the conclusions expressed in the
report. The NSF OIG does not express any opinion on AUI’s internal controls over its
accounting system and executive compensation or the conclusions presented in DCAA’s audit
report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact David Willems at (703) 292-4979 or Jannifer Jenkins
at (703) 292-4996.

Attachments:    DCAA Report No. 6171-2010J17900008, dated September 29, 2011

cc:       Martha Rubenstein, CFO and Director BFA
          Mary Santonastasso, Division Director, DIAS
          Vernon Pankonin, Program Director, MPS/AST
          Clifford Gabriel, Senior Advisor, OD




                                               3
Defense Contract Audit Agency

                    United States
                Department of Defense

                   28 September 2011

Independent Audit of Associated Universities, Incorporated
Review of Accounting System and Executive Compensation

        AUDIT REPORT NO. 6171–2010J17900008
Audit Report No. 6171-2010J17900008
Audit Report No. 6171-2010J17900008

           DEFENSE CONTRACT AUDIT AGENCY
PREPARED FOR:     National Science Foundation
                  Office of the Inspector General
                  ATTN: Mr. David Willems
                  Audit Manager
                  4201 Wilson Boulevard
                  Arlington, VA 22230-0002

PREPARED BY:      DCAA Chesapeake Bay Branch Office
                  10025 Governor Warfield Parkway
                  Suite 220
                  Columbia, MD 21044
                       Telephone No.    (410) 964-2070
                       FAX No.          (410) 997-0509
                       E-mail Address   dcaa-fao6171@dcaa.mil

REFERENCES:        Relevant Dates: See Page 9

AWARDEE:          Associated Universities, Inc.
                  1400 16th Street NW, Suite 730
                  Washington, DC 20036-2252
                                                                Page
CONTENTS:         Subject of Audit                                1
                  Scope of Audit                                  1
                  Results of Audit                                1
                  Awardee Organization and Systems                7
                  DCAA Personnel and Report Authorization         9
                  Audit Report Distribution                      10
                  Appendixes                                     11
Audit Report No. 6171-2010J17900008

                                     SUBJECT OF AUDIT

        As requested by you on August 13, 2009 and as discussed subsequently with your office,
we reviewed the adequacy of Associated Universities, Inc.’s (AUI) accounting system, including
cost allocation recovery, the reasonableness of the awardees’ highest paid executives, and for
determining if the weaknesses addressed in the Total Business System Recovery (TBSR) report
have been properly addressed and corrected.

        AUI is responsible for establishing and maintaining written policies and procedures on
their accounting system. In addition, the cost data and supporting documentation are the
responsibility of AUI. Our responsibility is to express an opinion on the adequacy of the
accounting system and determining whether the awardees’ compensation paid to its executives is
reasonable.

                                      SCOPE OF AUDIT

        We conducted our examination in accordance with generally accepted government
auditing standards, except DCAA does not currently have an external opinion on its quality
control system as required by GAGAS 3.55. The most recent external quality control review
opinion expired on August 26, 2009. GAGAS require that we obtain a sufficient understanding
of internal controls to plan our examination and determine the nature, timing, and extent of tests
to be performed. An examination of the awardees’ accounting system includes:

       •   Obtaining an understanding of the awardees’ accounting system to determine whether
           the awardee adequately accumulates and segregates costs;
       •   Obtaining an understanding of the awardees’ cost allocation recovery;
       •   Determining whether the awardees’ billing system is adequate to receive advance
           payments;
       •   Determining the reasonableness of the awardees’ highest-paid executives; and
       •   Determining the need for technical assistance.

       We evaluated the adequacy of the accounting system, including cost allocation recovery,
and reasonableness of executive compensation using the applicable requirements contained in:

       •   2 CFR Part 230 – Cost Principles for Non-Profit Organizations (OMB Circular A-
           122);
       •   2 CFR Part 215 – Uniform Administrative Requirements for Grants and Agreements
           with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations
           (OMB Circular A-110);
       •   National Science Foundation Grant Policy Manual; and
       •   Cooperative Agreement terms and conditions.

        The scope of our examination reflects our assessment of control risk and includes audit
tests designed to provide a reasonable basis for our opinion.
Audit Report No. 6171-2010J17900008




        Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal control
over the property and procurement process to future periods are subject to the risk that the
internal control may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.

                                    RESULTS OF AUDIT

       In our opinion, except for the conditions noted below, AUI’s accounting system is
adequate for accumulating and billing costs under Government awards. In addition, AUI’s
executive compensation is reasonable in accordance with the cost principles in 2 CFR Part 230,
Cost Principles for Non-Profit Organizations, and the weaknesses addressed in the Total
Business System Recovery (TBSR) report have been properly addressed and corrected.

        Our examination was limited to determining whether AUI’s accounting system is
adequate for accumulating and billing costs under Government contracts. We did not perform a
comprehensive examination of the awardees’ overall accounting system and its related internal
control. Accordingly, we express no opinion on AUI’s system of internal control taken as a
whole.

       We discussed the results of audit with
                                                                              , in an exit
conference held on September 22, 2011. We provided a draft copy of the Statement of
Conditions and Recommendations to the awardees’ representatives at the exit conference. The
complete text of the awardees’ response appears as Appendix 1.

                 STATEMENT OF CONDITIONS AND RECOMMENDATIONS

11-01 – Cost Recovery Policies and Procedures

        Condition: The awardee does not maintain a “final” version of its policies and
procedures relative to its Indirect Cost and Common Cost Recovery Rates. The copy that we
were provided was in draft form dated April 25, 2008. Therefore, we cannot consider this to be
the official policy and procedure for the organization.

       Recommendation: We recommend that the awardee finalize its policies and procedures
and date the version so that we know what period it relates to and that it is the most current,
accurate, and complete description of its indirect cost rates.

        Awardees’ Response: AUI will finalize a comprehensive AUI/NRAO “Cost Allocation
Policies and Procedures,” to include all cost allocation methodologies, by December 31, 2011.

        Auditor’s Reaction: Based on the awardees’ response, we will follow up to determine if
the Policies and Procedures have been finalized by the date established if requested by NSF.
                                                2
Audit Report No. 6171-2010J17900008




11-02 – Application of Fixed Rate

        Condition: The awardee does not properly apply fixed rates in accordance with the
definition cited in 2 CFR, Part 230, Appendix A, Section E(1)(c) to computes its carry forwards.

        An example of the current computation using the awardee’s 2007 “Indirect Cost Rate
Final” is:

                                            FY 07
       ATCTUAL MTDC             FIXED RATE @     FINAL RATE @                 OVER/(UNDER)
       BASE                          .




         The current process used by the awardee is incorrect because it incorporates a
combination of methods for applying indirect cost rates when determining carry forwards. As a
result, it could impact awards in future periods by possibly overcharging the government if not
corrected. Under 2 CFR, Part 230, Appendix A, Section E(1)(c), “Negotiation and Approval of
Indirect Cost Rates” the indirect cost rate types defined and established for reimbursement
should either be provisional; final; predetermined; or fixed with carry forwards; and must be
properly applied to the benefiting base. Also, the definition of a fixed rate is “an indirect cost
rate which has the same characteristics as a predetermined rate, except that the difference
between the estimated costs and the actual costs for the period covered by the rate is carried
forward as an adjustment to the rate computation of a subsequent period”.

       The computation based on the fixed rate definition above should be:

                                            FY 07
       ACTUAL MTDC              FIXED RATE @    INDIRECT COST                 OVER/(UNDER)
       BASE                         1.44%          BOOKED




       Note the difference in the two calculations for the under recovery which is $306,270
($387,800 - $81,530). That’s because in this example we are only applying the fixed rate
approved for that year (2007) per the negotiation agreement, which is the proper computation. It
is improper to use two different rates when computing carry-forwards as shown in the first
example.




                                                 3
Audit Report No. 6171-2010J17900008



        Recommendation: We recommend that the awardee use the proper application of the
fixed rate based on the definition as included in Under 2 CFR, Part 230, Appendix A, Section
E(1)(c).

         Awardees’ Response: AUI recognizes that it may have combined two methodologies for
calculating the over/ (under) recovery and will recalculate carry forward adjustments in FY2007,
FY2008 and FY2009 utilizing the fixed with carry forward methodology recommended by
DCAA.

       Auditor’s Reaction: DCAA does not recommend a methodology for calculating carry
forwards, however; we cited 2 CFR, Part 230, Appendix A, Section E(1)(c) which identifies the
proper application of the fixed rate.

11-03 – Unallowable Costs Included in Allocation Base

        Condition: The awardee excludes voluntary unallowable costs incurred by NRAO from
the base and charges it to AUI when computing the indirect cost rate. Types of unallowable
costs incurred by NRAO and identified by the awardee were some meetings, conferences and
miscellaneous. As a result of the exclusion, these costs would not receive its fair share of
indirect costs and other awards will be absorbing a greater share of the indirect costs. As
discussed in 2 CFR 230, Appendix A, Section B(3), “… even though these costs are unallowable
for purposes of computing charges to Federal awards, they nonetheless must be treated as direct
costs for purposes of determining indirect cost rates and be allocated their share of the
organization’s indirect costs”.

        Recommendation: We recommend that the awardee properly calculate it’s indirect cost
rate by including voluntary unallowable costs relative to the cost objectives in the base for
computing the rate and receiving its fair share of indirect costs in accordance with 2 CFR 230,
Appendix A, Section B(3).

        Awardees’ Response: AUI will include voluntary unallowable costs relative to the cost
objectives in the direct cost base for computing its Indirect Cost Rate, in accordance with 2 CFR
230, Appendix A, Section B (3).

        Auditor’s Reaction: In the future, upon request by NSF, we will follow up to determine
if the awardee has included voluntary unallowable costs in the base for computing the Indirect
Cost Rate.

11-04 – Allocation of Common Costs to the ALMA Project

       Condition: The awardee did not disclose its full practice of allocating common costs to
the Alma Project when describing the cost allocation method.

        When describing the Common Cost Recovery in the policies and procedures, it is
identified as administrative and management costs pertaining to NRAO that are allocated to non-
                                              4
Audit Report No. 6171-2010J17900008



NSF awards based on a Predetermined Common Cost Recovery rate. However; it does not
inform us that prior to establishing the Common Cost Recovery Rate, there is common costs that
are allocated to the Alma Project using a direct method based on percentages established using
full time equivalents (FTE’s) and square footage. Without disclosing an adequate description of
the indirect cost rate structure, we would be unable to determine if the costs are equitably
allocated and billed to the benefiting awards in accordance with 2 CFR Part 215.21 (b)(6),
“Written procedures for determining the reasonableness , allocability and allowability of costs in
accordance with the provisions of the applicable Federal Cost Principles and the terms and
conditions of the award”.

        Recommendation: We recommend that the awardee properly document and disclose the
detail of all cost allocations and its elements per 2 CFR Part 215.21 (b)(6) to allow a person with
no knowledge of the organization to gain an understanding of the procedures and to establish if it
is reasonable and equitable.

        Awardees’ Response: AUI will properly document and provide the detail of all cost
allocation methodologies per 2 CFR Part 215.21 (b) (6) in the final AUI/NRAO “Cost Allocation
Policies and Procedures.”

        Auditor’s Reaction: In the future, upon request by NSF, we will follow up to determine
if the awardee has properly documented its allocation methodologies.

11-05 – Reconciliation of Cumulative Costs Incurred on Billings

       Condition: The awardees’ accounting system does not adequately identify the source and
application of funds for federally-sponsored activities. As a result, the system does not allow for
a timely reconciliation of its quarterly SF 272’s to the cumulative costs incurred on various
awards. While the awardees’ accounting system has the ability to produce cumulative cost
reports, there are variances or differences between what is recorded in the accounting system
itself and what is reported on the quarterly SF 272’s to the National Science Foundation.
According to the awardee, the differences require detailed reconciliations of quarterly general
ledger data, which was not available in time during our review. While we verified the awardees’
reconciliation for several of its awards, we were not able to review the awardees’ two largest and
oldest awards. These reconciliations were not provided in a timely manner to be included in the
results of this audit. As a result, we were unable to reconcile cumulative funds reported on the
quarterly billings for AST 0226933 and AST 024577 to cost accounting data. Without being
able to reconcile cost accounting data to the SF 272’s, we are unable to determine the accuracy
of the costs reported to NSF or if there are any cost overruns.

      Recommendation: We recommend that the awardee ensure that its reconciliation
procedures are in accordance with 2 CFR Part 215.21(b)(2), which states that a recipient’s
financial management system provides for “Records that identify adequately the source and
application of funds for federally-sponsored activities.” This includes performing reconciliations
of the cost incurred in its accounting system to the amounts that will be reported on the financial

                                                 5
Audit Report No. 6171-2010J17900008



reports to NSF for each award. The reconciliations should provide a detailed explanation of any
differences between what is recorded and what is reported on the billings to NSF.

      Awardees’ Response: The current reconciliation process for reported quarterly
expenditures will be expanded to include a reconciliation of reported cumulative inception to
date expenditures. Any variance in reported inception to date expenditures will be corrected and
a detailed explanation provided.

      Auditor’s Reaction: In the future, upon request by NSF, we will follow up to determine if
the awardee has expanded its reconciliations as stated in the response




                                                6
Audit Report No. 6171-2010J17900008

                        AWARDEE ORGANIZATION AND SYSTEMS

1.     Organization

        Associated Universities, Incorporated (AUI) is a not-for-profit organization that was
established in 1946 as an educational institution dedicated to research, development, and
education in the physical, biological and engineering services. AUI is the Management
organization for National Radio Astronomy Observatory (a Federally Funded Research and
Development Center) which operates and manages astronomical observatories located in Chile;
Greenbank, West Virginia; and Socorro, New Mexico. AUI, in addition to managing NRAO,
also manages the support and construction of the Atacama Large Millimeter Array (ALMA) in
Chile. AUI’s responsibilities include appointing the Observatory Director and other hiring
decisions; reviewing ongoing programs and budgets; as well as overseeing any new projects or
proposals. AUI is governed by a Board of Trustees, which performs many functions, including
electing Corporate Officers who serve the Board in carrying out the everyday business of AUI.
For the fiscal year ending September 30, 2009, AUI generated approximately $147 million in
operating revenue from NSF (National Science Foundation).

       The most recently awarded NSF cooperative agreement (AST-0956545), effective from
November 15, 2009 through September 30, 2015, is applicable for the management and
operations of the NRAO. NSF’s funding projection to AUI for FY’s 2010 – 2015 is
approximately $458 million.

2.     Accounting System

        Costs are allocated and managed under Scientific Program Orders (SPO’s). The awardee
maintains a job cost accounting system wherein contracts are assigned individual project
numbers that are used to accumulate associated direct costs. The awardee utilizes JD Edward’s
software for its accounting system. NRAO’s unallowable costs are not recorded in NRAO’s
general ledger. Instead, these costs are charged directly to AUI’s books and records to an
unallowable account code. Employees use an Electronic Timekeeping (ETK) system for
inputting time and processing payroll. Claims for reimbursement are submitted weekly by
authorized employees using the government directed FastLane software program.




                                              7
Audit Report No. 6171-2010J17900008




                                      8
Audit Report No. 6171-2010J17900008



                                        DCAA PERSONNEL

                                                                     Telephone Number
Primary contacts regarding this audit:




Other contacts regarding this report:



                                                                        FAX Number
         Chesapeake Bay Branch Office

                                                                       E-mail Address
         Chesapeake Bay Branch Office

General information on audit matters is available at http://www.dcaa.mil/.


                                        RELEVANT DATES

Audit Request Date: August 13, 2009


AUDIT REPORT AUTHORIZED BY:



                                                    /Signed/ Ronald T. Craig
                                                    Terry Craig
                                                    Branch Manager
                                                    DCAA Chesapeake Bay Branch Office




                                                9
Audit Report No. 6171-2010J17900008



                             AUDIT REPORT DISTRIBUTION

DISTRIBUTION
                                                            E-mail Address
Audit Manager                                       jcjenkins@nsf.gov
National Science Foundation                         dwillems@nsf.gov
ATTN: Mr. David Willems, Audit Manager
4201 Wilson Boulevard
Arlington, VA 22230-0002

Associated Universities, Incorporated               (Copy furnished through ACO)
1400 16th Street NW Suite 730
Washington, DC 20036

Senior Financial Liaison Advisor

8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219




                                         10
Audit Report No. 6171-2010J17900008                                                                   APPENDIX 1




                      Inco


      Suite 730
      1400 16 th Street, NW
      Washington, DC 20036
      Phone: 202.462.1676
      Fax: 202,23207161


                                                                           September 27, 201 I


                              AU! Management Response to DCAA Internal Controls Audit

                                          Indirect Rates and Acconnting System



                                                   Indirect Rates Review

          Indirecilles Overall

          Condition: The contractor does not maintain a "final" version of its policies and procedures relative to
          its Indirect Cost and Common Cost Recovery Rates. Tbe copy that we were provided was in draft form
          dated April 25, 2008. Therefore, we cannot consider this to be the official policy and procedure for the
          organization.

         Recommendation: We recommend that the contractor finalize its policies and procedures and date the
         version so that we know what period it relates to and that it is the most current, accurate, and complete
         description of its indirect cost rates.

         AUI Management Response: AUf acknowledges that it provided a "draft" version of the A UfINRAO
         policies and procedures related to its Indirect Cost and Common Cost Recovery Rates to DCAA. A Ul
         will finalize a comprehensive A UUNRAO "Cost Allocation Policies and Procedures, " to include all cost
         allocation methodologies, by December 31,2011.

         Indirect Cost Rate fIDC)- Fixed Rate

              1. Condition: The contractor does not properly apply fixed rates in accordance with the definition
                 cited in 2 CFR, Part 230, Appendix A, Section E(I)(c) to computes its carry forwards.

                  An example of the current computation using the contractor's 2007 "Indirect Cost Rate Final" is:


                  ACTUALMTDC             FIXEDRATE@
                  BASE                       1.44%




                                                              11
Audit Report No. 6171-2010J17900008




              The current process used by the contractor is incorrect because it incorporates a combination of
              methods for applying indirect cost rates when detennining cany forwards. As a result, it could
              impact awards in futu're periods by possibly ov'ercharging the government if not correct~d.
              Under 2 CFR, Part 230, Appendix A, Section E(l)(c), "Negotiation and Approval of Indirect
              Cost Rates': the indirect cost 'rate' types defined and established for reimbursement should either
              be provisional; 'final; predetermined; or fixed with cany forwards; and must be' properly applied
              to the benefiting base. Also, the defiriition of a fix'ed rate is '''an' indirect cost rate which has the
              same characteristiCs as a predetennined rate, except that 'the difference between the estimated
              costs and,the actual costs for the period covered by the,rate is carried forward as an adjustment
              to the rate computation of a subsequent period".

              The computation based on the fixed rate definition above should be:




              Note the difference in the two calculations for the under recovery which is $ 3 0 6 , 2 7 0 _
                           That's because in this example we are only applying the fixed rate approved that year
              (2007) per the negotiation agreement which is the proper computation. It is improper to use two
              different 'rates when computing carry forwards 'as shown in the first example.

              Recommendation: We recommend that the contractor use the proper application of the fixed
              rate based on the definition as included in Under 2 CFR, Part 230, Appendix A, Section E(l)(c).

             A UI Management Response: A UI received a Fixed Indirect Cost Rate with Carry Forward
             Agreementfrom NSF in November 2005. The most current approved A UIIndirect Cost Rate
             Agreement with NSF was for the years ended September 30, 2007 and September 30, 2008. AU!
             submitted "Provisional" Fixed "with Cany FOrl'l'ardRate proposals!orFY2009. PY2010, and
             FY20 // to NSF for approval. rhe carry-forward acijustments included in these proposal,
             reflected the over! (under) recovery of indb"ecl costs based on the variance of the provisionai
             andflnal indirect rate applied to the modified total direCt cost base (MTDCJ. The carry.forward
             adjustments 'were applied to the provisional indirect cost rate calculation two years hence> for
             example, the FY2007 carryforward acijustment was included in the FY2009 Indirect Cost Rate
             proposal.

             AUf recognizes that it may have combined two methodologies for calculating the over! (under)
             recovery and will recalculate carryforward acijustments in FY2UG7, FY2008 and FY2009
             utilizing the fixed with carry fonvard methodology recommended by DCAA. AUf will make any
             necessary corrections to the carryforward acijustments (FY2007, FY2008, and FY2009) in the
             FY2009, FYlO/O,and FY20// Indirect Cost Rate proposals. Additionally, AUl will meet with
             NSF t6 discuss the appropriate methodology to use to calculate its FY2012 Indirect Cost Rate.

          2. Condition: The contractor excludes voluntary unallowable costs incurred by NRAO from the
             base and charges it to AUI when computing the indirect cost rate. Types of unallowable costs
             incurred by NRAO and identified by the contractor were some meetings, conferences and
             miscellaneous. As a result of the exclusion, these costs would not receive it') fair share of


                                                            2




                                                                12
Audit Report No. 6171-2010J17900008




                 indirect costs and other awards will be absorbing a greater share of the' indirect costs. As
                 discussed in 2 CFR 230; Appendix A, Section B(3), " ... even though these costs are unallowable
                 for purposes of computing charges to Federal awards; they nonetheless must be' treated as direct
                 costs for purposes of determin"ing indirect cost rates and be allocated their share of the
                 organi711tion's indirect costs~',

                 Recommendation: 'We recommend that the contractor properly calculate it's indirect cost rate
                 by including voluritary'llTIalIowable costs relative to the cost objectives in the base for computing
                 the rate and receiving its fair share of indirect costs in accordance with 2 CFR 230~' Appendix A,
                 Section B(3).

                A UI Management Response: AUf will include voluntary unallowable costs relative t6 the cost
                objectives in the direct cost base for computing its Indirect Cost Rate, in accordance with 2 CPR
                230, Appendix A. Section B (3).

        Allocation of Common Cost to the ALMA Project

        Condition: The contractor did not disClose its fuJI practice of allocating 'common costs to the ALMA
        Project when describing the cost allocation method.

         When describing the Cornman Cost Recovery in the policies and procedures, it is identified as
        administrative and management costs pertaining to NRAO that are allocated to non~NSF awards based on
        a Predetenn'ined Common Cost Recovery rate. However; it does not inform us that prior to establishing
        Jhe Common Cost Recovery Rate, there is common costs that are allocated to the Alma Project using a
        direct method based on percentages established uSing fuJI time equivalents (FTE's) and square footage.
        Without disclosing an adequate description ofthe indirect cosfrate structUre, we would be unable to
        detennine ifthe costs are equitably allocated and billed to the benefiting awards in accordance with 2
        CFR Part 215.21 (b)(6), "Written procedures for detennining the reasonableness, allocability and
        allowability of costs in accordance with the provisions of the applicable Federal Cost Principles and the
        terms and conditions of the award".

        Rec,ommendation: We recommend that the contractor properly document and disclose the detail of all
        cost allocations and its elements per 2 CFR Part 215.21 (b)(6) to allow a person with noknowJedge of
        the organization to gain an understanding of the procedures and to establish if it is reasonable and
        equitable.

        A UI Management Re!Jponse: A UI will properly document and provide the detail 0/ all cost allocation
        methodologies per 2 CFR Part 2 I 5.21 (b) (6) in theiinal A UIINRAO "Cost Allocation Policies and
        Procedures. "


                                               Accounting System Review

        Condition: The' contractOr's a'ccounting system does not adequately identify the source and applic'ation
        of funds for federally·:sponsored activities. As a result, the system does not allow for a timely
        reconciliation of its quarterly SF 272'5 to the cumulative costs incurred on various awards. While the
        contractor" s -accounting system has the ability to produce cumulative cost reports~ there are variances or
        differences between what is recorded in the accounting system itself and what is reported on the quarterly
        SF 272'$ to the Natioha:i Science Foundation. According to the COiltractor, the differences require

                                                             3




                                                                 13
Audit Report No. 6171-2010J17900008




         detailed reconciliations of quarterly general ledger data, which was not available in time during our
         review. While we verified the contractor's reconciliation for several of its awards, we were not able to
         review the contractor's two largest and oldest awards. These reconciliations were not provided in a
         timely manner to be included in the results ofthis audit. As a result, we were unable to reconcile
         cumulative funds reported on the quarterly billings for AST 0226933 and AST 024577 to cost accounting
         data. Without being able to reconcile cost accounting data to the SF 272's, we are unable to determine
         the accuracy of the costs reported to NSF or ifthere are any cost overruns.

        Recommendation: We recommend that the contractor ensure that its reconciliation procedures are in
        accordance with 2 CFR Part 215.21(b)(2), which states that a recipient's financial management system
        provides for "Records that identii'y adequately the source and application of funds for federally-
        sponsored activities." This includes performing reconciliations ofthe cost incurred in its accounting
        system to the amounts that will be reported on the financial reports to NSF for each award. The
        reconciliations should provide a detailed explanation of any differences between what is recorded and
        what is reported on the billings to NSF.

        AUf Management Response: The A UIINRAOJD Edwards Financial System adequately identifies and
        records expenditures at both the project level and the category (account) level through assigned
         Business Units (BU~~) and object accounts. Historically, reportingfor non-construction projects was on
         a monthly andfiscal year-lo-date period which did not include cumulative inception to date expenditures
        from priorfiscal years. However, quarterly expenditures were reported on the previous Federal Cash
         Transactions Report (FCTR) and the current Federal Financial Report (FFR) was reconciled to the
        detailed general ledger reports by project.

         A UIINRAO developed reports to include cumulative inception to date expenditures for all projects and
        is verifYing total reported expenditures to the underlying general ledger detail for each fiscal year. The
        current reconciliation process for reported quarterly expenditures will be expanded to include a
        reconciliation of reported cumulative inception to date expenditures. Any variance in reported inception
        to date expenditures will be corrected and a detailed explanation provided.




                                                            4




                                                             14
